   DRG 154: STOMACH , ESOPHAGEAL

     & DUODENAL PROCEDURES





                    RICHARD P. KUSSEROW
                     INSPECTOR GENERAL




OAI- 12-88- 01160                         JULY1989
                                         EXECUTIVE SUMMARY


BACKGROUND

Diagnosis related group (DRG) 154 pays for major, operating room procedures involving the
upper gastrointestinal trct. It cares a high relative weight because it includes a varety of
complex surgeries, 2.u876 in Fiscal Year (FY) 1987. Although DRG 154 bils comprise only
  5% of prospective payment system discharges, the $381.4 millon Medicare paid for them
amounts to 1.2% ofFY 1987 reimbursement The National DRG Validation Study suggested
that DRG 154 might have high overpayments. This inspection confis this inference and
quantifies the size of Medicare s losses to miscodng.

FINDINGS

     Overal, 20. 0  percent ofDRG 154 discharges should have grouped to a different DRG.
     This error rate exceeds the 18. 6 percent for all DRGs.
     All DRG 154 assignment errors resulted in the hospitals overpaying themselves. This
     overpayment percentage signifcantly exceeds the 59. 7 percent for all DRGs.
                                 $51.0 milion overpayment in DRG 154' s $381.4
     These errors caused a projected 


     milion reimbursement durng FY 1987, a 13.4 percent rate.
     In nearly all errors, the medical records deparment assigned the wrong ICD-
     numeric code to procedurs corrctly described by the physician on the Attestation
     Sheet In a few cases, it assigned incorrct numeric codes to patient diagnoses.

     Most of the discharges incorrectly coded as DRG 154 grouped to other DRGs in Major
     Diagnostic Category 06, the digestive system. In parcular,   non-surgical
     gastrintestial hemorrhage (DRG 179), peptic ulcer (DRG 177), and gastroenteritis
     (DRG 182).
     The 1987 requirement that Fiscal Intermediares verify a sample open biopsy claims
     from operative report would detect less than one percent of DRG 154 assignment errors.

RECOMMENDATIONS

     The Health Care Financing Admnistrtion (HCFA) should requir the peer review
     organizations (PROs) to furer educate hospital medical records deparents about the
     proper codes to use for upper gastrintestinal endoscopies and use of the surgical
     hierachy.
     The HCFA should dict the PROs to check a sample of futu DRG 154 bils for
     accurcy.
The HCFA agrees with fit recommendation and disagrees with the second recommendation.
The Offce of Inspector General contiues to believe that full implementation of these recom­
mendations would save $51. 0 millon annually.
                   . . . . . . . . . . . . . . . .. .. .. .  .. .:.. ... ... ... ...... ..
             ...........................................................
                                                          .. .                          .. ......
                                                                                              ...........
                                                                                                 .'                                                  . . . . . . . ...
                                                                                                        ... ... ...... .. .. .. .. .. .. .. .. .. .. .
                                                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




                                                 TABLE OF CONTENTS


EXECUTIVE SUMMARY
INTRODUCTION
                Background
                PPS vulnerabilties
                PPS clais processing

                DRG 154 .................................................

                 Methodology
FINDINGS
                 Sample charcteristics
                 Assignment errors
                Dirction of errors
                Source of errors
                Reasons for errors
                Financial effects
                Corrct DRG assignments
                Clinical review results
RECOMMENDATIONS
Appendix A- I: DRG 154 discharges from al PPS hospitas. .
Appendix A- 2: DRG 154 sampling frame
Appendix A- 3: DRG 154 hospita demography
Appendix A- 4: DRG 154 hospital demography comparson
Appendix A-5: DRG 154 patient demography
Appendix A- 6: DRG 154 patient demography comparson
Appendix B- 1: DRG 154 codg accuracy
Appendix B- 2: DRG 154 codg accuracy comparson.
Appendix B- 3: DRG 154 codg accuracy by patient demography
Appendix C- l: DRG 154 overpayments by hospital demography
Appendix C- 2: DRG 154 overpayments comparson
Appendix C- 3: DRG 154 overpayments by patient demography
Appendix D- l: DRG 154 hospital department making error
                                                                                             ............
                                                                                              ........... .
                                               . . . . . . . . . . . . . . . . . . .. .. .. .. .. .. .. .. .. .. .. .. .. ..




Appendix D- 2: DRG 154 hospital deparment makng error comparson
Appendix D- 3: DRG 154 hospital deparment making error by patient demography
Appendix E- l: DRG 154 codng error reasons
Appendix E- 2:   DRG 154 codng error reasons by hospital demography
Appendix E- 3:   DRG 154 coding error reasons comparson
Appendi E- 4: DRG 154 codng error reasons by patient demography

Appendix F- l: DRG 154 corrcted relative weights
Appendix F- 2: DRG 154 corrcted reimbursement. . . .
Appendix F- 3: DRG 154 projected cost of errors
Appendix G- l: Corrct MDC for discharges mis-assigned to DRG 154
Appendix G- 2: Correct DRG for discharges mis-assigned to DRG 154
Appendix G- 3: ICD- CM procedure codes for discharges mis-assigned to DRG 154 . .
Appendix G- 4: ICD- CM procedure codes for DRG 154 discharges
Appendix G- 5: DRG 154 errrs   biling for an open biopsy

Appendix H- l: DRG 154 clinical incidents. ; . .
Appendix H- 2: DRG 154 clinical incidents comparson
                                   INTRODUCTION


BACKGROUND

On October 1 , 1983 , the Health Care Financing Administration (HCFA) began im­
plementing a new system of payment for inpatient hospital servces under the Medicare
program. The new prospective payment system (PPS) replaced the cost-based reimburse­
ment system. Congress mandated this change because of rapid growth in health care
costs, particularly, the rapid increase in payments for inpatient expenses under Medicare.

Under PPS , hospitals received a pre-established payment for each discharge , based upon
the diagnosis related group (DRG) to which the discharge groups. The PPS classified dis­
charges into clinically coherent groups which use similar amounts of hospital resources,
based on variables such as: diagnosis; evaluation and treatment procedures; and patient
age , sex, and discharge status. Each of the 473 DRGs had an associated relative weight,
which represented the average cost for hospital care provided to patients with diagnoses
grouping to that DRG as a proportion of the cost of the average patient. The hospital
received this payment independent of the actual length of hospitalization or cost of treat­
ment for the individual patient. The hospital retained any surplus from patients consum­
ing les than the expected amount of resources , and suffered losses on those patients
consuming more.


The shift from cost- based , retrospective reimbursement to prospective payment con­
stituted one of the most dramatic changes in health care reimbursement since the crea­
tion of Medicare. A fixed payment per discharge induced hospitals to implement
economies and reduce unnecessary servces. The total payments to the hospitals
provided the same financial resources for patient care. In effect , PPS reversed the finan­
cial incentives for hospitals. Where the cost-reimbursement system rewarded longer
hospital stays and more costly treatments , PPS rewarded earlier discharges and less costly
procedures. One of the first consequences of the new payment system came as a drop in
average length of hospital stay for Medicare patients.

PPS vulnerabilties

The advent of PPS also created new opportunities for manipulation or " gaming " to in­
crease hospital revenues from Medicare patients. To protect the integrity of PPS and
maintain quality of care Congress established peer review organzations (PROs) to
monitor hospital activities.

In addition, the Office of the Inspector General (OIG) conducted the National DRG
Validation Study to survey the general accuracy of DRG assignment and quality of care
performed by hospitals under PPS. The National DRG Validation Study examined as­
signment accuracy in over 7000 medical records. The OIG established that PPS assign­
ment errors resulted in $300 milion in overpayments to hospitals and that the majority of
overpayments could be traced to assignment errors affecting a small number of DRGs.
This report comprises one of a series examning assignent accuracy of one ofthe DRGs
identified as having the highest impact on overpayments under PPS and the greatest
potential for cost recovery.

The PPS may create financial incentives for hospitals to manpulate or " game " the pay­
ment system in order to receive maxmum Medicare reimbursements. The PPS gaming
takes two principal forms. " Optimiation " strategies adhere to coding rules , but max­
mize hospital reimbursements by selecting the most expensive among viable alternative
principal diagnoses or adding more secondary diagnoses. PPS permts optimiation.
DRG " creep " results from coding practices which do not conform to coding rules.
Sources of DRG creep include:
     Mis-specification of the principal diagnosis, secondary diagnoses , or procedures by
     the attending physician. The Uniform Hospital Discharge Data Set defines the
     principal diagnosis as " that condition established after study to be chiefly
     responsible for occasioning the admission of the patient to the hospital for care.
     Miscoding by the hospital's medical records department when assigning codes to
     the diseases or procedures attested to by the attending physician.
     Resequencing of the order of the narrative diagnoses to substitute a secondar
     diagnosis for the correct principal diagnosis.





PPS claims processing

Under PPS, the hospital files a claim for Medicare reimbursement upon discharging the
covered patient. The attending physician attests to the principal diagnosis which caused
the patient's admission to the hospital , secondar diagnoses, and procedures (diagnostic
and therapeutic) provided. The medical records department tranlates the narrative diag­
noses of the physician s attestation statement into numeric codes from the International
Classification of Diseases , Ninth Revision, Clinical Modification (ICD- CM), and
prepares a claim. Fiscal intermediary (FI) organizations ,   working under contract with
HCFA, enter the hospital's codes into the GROUPER computer program which assigns
the appropriate DRG for reimbursement.

Multiplying the " relative weight" for each DRG by a standardized amount produces the
dollar reimbursement for the discharge , as modified by certain hospital-specific factors.
The relative weight for a DRG reflects the average cost of its treatment compared to the
average cost of treatment of all Medicare discharges. In Fiscal Year (FY) 1985 , the stand­
ardized amount for a relative weight of 1.0000 totaled $2985 for urban hospitals and
$2381 for rural hospitals. The relative weight of each DRG varies above or below 1. 0000
according to the average amount of hospital resources used by patients in that diagnostic
                                                                                 -?
                                                                                 --
                                                                                  -+




group. The higher the relative weight , the greater the reimbursement. Mis-assignment
of the ICD- CM categories, or erroneous assignment or sequencing of patient diag­
noses , can therefore have significant financial implications.

DRG 154

This study examines erroneous assignment and gaming in a single DRG: 154 - stomach
esophageal , and duodenal procedures. Being a surgical DRG , assignent to 154 re­
quires both upon (1).a principal diagnosis of upper gastrointestinal disease and (2) a re­
lated operating room procedure. Where multiple procedures occur during
hospitalization, the " surgical hierarchy " selects the most resource intensive one. Proce­
dures grouping to DRG 154 include removal of the stomach or small intestine , severing
the vagal nerve to the stomach , surgical repair of the esophagus, and similar major
surgery to the gastrointestinal tract. It does not include non-surgical procedures such as
endoscopy through the mouth to examne the upper gastrointestinal tract.


                     Figure     1:   DRG            154   (all PPS hospitals)


                                                                                       Relative Weight


                                                                                       Discharges (10K)
                                                                                       Charges ($100 M)
                                                                                       Payment ($100 M)
                                                                                       Mean Payment   ($1




           1984               1985                         1986           1987
                                           Fiscal




In the National DRG Validation Study, DRG 154 appeared to have a high rate of mis-as-
signment. Although Medicare pays only about 40, 000 such bils annually, they account
for a disproportionate 1.2 percent of prospective payment dollars. The OIG therefore in­
itiated this inspection to verify this preliminary impression. DRG 154 appeared par­
ticularly vulnerable to mis-assignment and manpulation due to its high relative weight
(2. 6621 in FY 1985) and concomitant average reimbursement ($8 198). In addition
DRG 154 carried the highest weight of any DRG in the surgical hierarchy of Major Diag­
nostic Category (MDC) 06, gastrointestinal diseases. (Appendix A­
The DRG 154 excludes most procedures that do not involve cutting into the abdominal
cavity. This inpection examined whether miscoding caused less invasive procedures to
erroneously group to DRG 154. Since October 1987 , the HCFA has required that hospi­
tals submit operating room reports on bils for open biopsies. The FIs verify 10 percent
of claims for accuracy of the procedure coded (Le., whether an open biopsy actually oc­
curred). This requirement checks the accuracy   of some DRG 154 bils.

METHODOLOGY

This study examnes DRG 154 discharges drawn from a sampling frame originally
designed for the National DRG Validation Study. It used a stratified two-stage sampling
design based on hospitals to select medical records for review. The first stage used
simple random sampling without replacement to select up to 80 acute care , prospective
payment hospitals from each of three strata based on bed size: less than 100 beds
(small), 100 to 299 beds (medium), and 300 or more beds (large). The second stage of
the design employed systematic random sampling to select DRG 154 bils for the period
October 1 , 1984 to March 31 , 1985 from the 239 hospitals selected in the first stage.




       Figure    2:   Sample Frame


                                                                            -c 100 beds

                                                                            100- 299 beds
                                                                            300 + beds




                DRG 154                      All DRGs



The OIG contracted with the Health Data Institute of Lexington, MA to reabstract the
entire sample of records. Upon receipt , the contractor " blinded" the ICD- CM codes
by covering them, and assigned an identification number to each record. An Accredited
Record Technician or Registered Record Administrator proficient in ICD- CM coding
reviewed the entire record to substantiate the principal diagnosis, other diagnoses , and
procedures indicated by the attending physician in the narrative attestation form. Any
records which did not support the assigned DRG classification went to physician
reviewers. The physician reviewers designated the correct UHDDS principal diagnosis
additional diagnoses, and procedures substantiated by the patient records. The
GROUPER computer program processed the reabstracted ICD- CM codes to deter­
mine correct DRGs. The final report on the National DRG Validation Study presents a
full discussion of the record review methodology (available from OIG Public Mfairs).
                                            FINDINGS

Sample characteristics

In FY 1985,      433 of the 8.3 millon prospective payment discharges (0.4 percent)
grouped to DRG 154. The National DRG Validation Study established that large and
medium sized hospitals submit a disproportionate share of DRG 154 bils. Smaller hospi­
tals may have lacked the facilities to perform the major surgery necessar to group to
DRG 154. The bed size trend for DRG 154 differed signficantly different from the dis­
tribution for all DRGs (Chi-square 4181.6, 2 df, P or 0. 0001). Discharges from 239 hospi­
tals in the sampling frame exhibited the same proportions as the underlying population.
They biled for 222 396 discharges of which 1 162 came from DRG 154. (Appendix A-

                       Figure   3 :   Hospital Demography

                                                                                      Yes
   DRG 154: Urban
   All DRGs: Urban                                                             B_;I


 DRG 154: Teaching
 All DRGs: Teaching


    DRG 154: Profit
    All DRGs: Profit



                                            Percent of discharges

The two-stage sample design permitted calculation of separate results for Medicare
beneficiaries (the probabilty of something happening to a person) and hospitals (the
odds of an event at a particular hospital). The appendices, tables, and chars therefore
report individual totals weighted by both discharges and hospitals. When weighted by dis­
charges to approximate the underlying population, DRG 154 bils principally came from
urban, nonteaching, and nonprofit hospitals. (Appendix A- 3) DRG 154 therefore paral­
leled the distribution of all PPS discharges , except for having a significantly higher
proportion of urban discharges even when controllng for bed size (Mantel-Haenszel Chi-
square 3. 96, df 1 , P or 0. 05). (Appendix A-

Discharge weighted and controllng for bed size, the DRG 154 sample did not differ sig­
nificantly from all DRGs by age (t test 0.57, P = 0.35) or sex (Mantel-Haenszell.4 , 1 df
P = 0. 23). (Appendix A-5) However , DRG 154 discharges did have significantly higher
                                        Table I: Patient Demography
                                 DRG 154      National DRG       Medicare
                                                Validation
               Age (year)              74.4         73.        not avaible
               Sex (% male)            38.          46.          42.
               LOS (days)              16.
               Payment ($)                                     29 urban
                                                               2381    rural
               Mortlit (%)                                    not available
                                                        050       3 millon



lengths of stay (t test 6. , P) and payments (t test 269.4, P) than the National DRG
Validation Study. .The samples also had the same mortalty rate (Mantel- Haenszel1.2 , 1
  , P = 0. 28). (Appendix A-

Assignment errors

Reviewers determned that 20. 0 percent of discharges should not have grouped to DRG
154. (Appendix B- 1). Medium sized hospitals had the' highest rate of assignent errors
but did not signficantly exceed the rates for either other sizes of hospitals in this sample
(Chi-square 3. 0, 2 df, P = 0. 22), or for al DRGs from medium sized hospitals (Chi-square
   , 1 df, P = 0. 08). DRG 154 assignent errors occurred more often in discharges from
urban (Mantel- Haenszel1.1 , 1 df, P = 0. 30), teaching (Mantel-HaenszeI2. , 1 df
P = 0. 09), and for-profit hospitals (Mantel-Haenszel 0. , 1 df, P = 0. 70); but not at statisti­
cally significant rates. (Appendix B-

Examnation of DRG 154 assignment errors by patient demography, demonstrates that
among discharges assigned to DRG 154 , those assigned incorrectly had the same average


           Percent      Figure    4:     Coding Accurac

                                                                               DRG 154

                                                                               All DRGs




                                              Be size
age; but a substantially lower percentage of males, shorter average lengths of stay, and
lower rate of patient mortality. No clear trend association existed between payment, in­
correct assignent, and bed size. (Appendix B-

Direction of errors

All of the errors in this sample resulted in overpayments to hospitals. Hospitals should
have coded and biled these discharges to a DRG with a lower relative weight than DRG
154 , which had a relative weight in FY 1985 of 2. 6621. (Appendix C- l) The combination
of a 20. 0 percent error rate and all errors increasing the reimbursement gave DRG 154
an effective overpayment percentage of 20. 0, significantly higher than the 11.1 percent of
the National DRG Validation Study (Chi-square 4. 13, df 1 , Pc: 0. 05). (Appendix C-



          Percent     Figure       5:   Direction of Coding E"ors

                                                                            DRG 154
                                                                            DRG 154
                                                                            All DRGs
                                                                            All DRGs




                          .. 100               100-299          300+
                                               Bed size


Appendix C-   , which tabulates the direction of DRG 154 errors by hospital demography,
shows that half the instances of overpayment came from mid-sized hospitals, largely be­
cause they had the highest rate of erroneous bils. (Appendix C-

Source of errors

All DRG 154 errors derived from errors in coding as opposed to errors in biling after
correct coding. In this inspection, medical records deparments incorrectly coded the
records as DRG 154 , and the hospital biled accordingly. No errors resulted from hospi­
tals incorrectly billing a record which had the correct medical codes. (Appendix D­
Reasons for errors

Miscoding errors by the hospital medical records department accounted for 81.2 percent
of the errors in DRG 154. Indeed , 62.5 percent of errors resulted from the medical
records department assigning the wrong code to a procedure correctly specified in the At­
testation Sheet. Another 18. 8 percent of errors occurred when the deparment selected
the wrong ICD- CM codes for the correct narrative principal or secondary diagnoses.
Only 12. 5 percent of errors derived from physician mis-specifyng the principal diag­
nosis. (Appendix E- l) In contrast , the National DRG Validation Study traced the
majority of its errors to mis-specification by the attending physician. (Appendix E-

In discharges miscoded by the hospital , patients tended to have a higher average age
lower percent of males, and to shorter lengths of stay than discharges in which physician
made narrative errors. In addition to longer hospital stays, the latter had higher average
reimbursements. (Appendix E-



                Figure   6:   Reasons for Errors
                                                                     1M Misspecification
                                                                          Miscoding
                                                                          Resequenciflg
                                                                          Other



            DRG 154                                All DRGs

Financial effects

Weighted by discharges , overpayments totaled 14. 3 percent of total dollar reimburse­
ment. Mter reabstraction, the average relative weight for DRG 154 discharges in this
sample decreased from 2. 6621 to 2. 2823 , and the total relative weight decreased from
66. 6625 to 57. 0575. (Appendix F- l) Based on the hypothetical, national , standardized
amounts for reimbursement during FY 1985 ($2985 urban and $2381 rural), the change
in relative weight for discharges in this sample resulted in average overpayments of $965
to small hospitals , $1541 to medium sized hospitals, and $672 to large hospitals on each
discharge paid as DRG 154. The bulk of these overpayments went to mid-sized hospi­
tals , which also had the highest rate of coding errors. (Appendix F-2)
Projecting the 14. 3%
                    overpayment rate to the entire Medicare population, miscoding of
DRG 154 resulted in an estimated $42. 1 millon of excessive payments in FY 1985 and in­
creased to $51.0 millon in FY 1987. Extrapolating the rising four year trend for DRG
154 reimbursement implies overpayments of $75. 6 millon by FY 1990. (Appendix F-

                           Figure         7:   Overpayments Projected
                $ milion


                                                                              Ovymen




                     198            198        198   1987   198   198   199



Correct DRG assignments

After reabstraction by reviewers , 93. 8 percent of errors grouped to another DRG in
MDC 06 , diseases and disorders of the digestive system. Ths recoding assigned 18. 8 per­
cent of these discharges to lower weighted surgical DRGs in MDC 06 and 75. 0 percent to
non-surgical (or medical) DRGs in MDC 06. . Medical DRGs usually car lower relative
weights than more resource intensive , surgical conditions. (Appendix G-

Of the coding errors, 62. 5 percent grouped to only three nonsurgical DRGs: 174
(gastrointestinal hemorrhage), 177 (uncomplicated peptic ulcer), and 182 (esophagitis,
gastroenteritis , and miscellaneous digestive disorders). (Appendix G-2). In 43. 8 percent
of errors , hospitals biled for varous operating room procedures while actually perform­
ing endoscopy of small intestine (ICD- CM 45. 13), a non-operating room procedure car­
ryng a lower relative weight. (Appendix G-3) Analyzed at the level of narrative
diagnoses and procedures , other erroneous bils pertained to procedures elsewhere in
the gastrointestinal tract or did not relate to the almentary canal at all. Viewed in con­
junction with the high rate of errors due to miscoding of correct narrative diagnoses im­
plies coder confsion about the ICD- CM treatment of esophagogastroduodenoscopy
and instrumentation. (Appendix G-

The HCFA's 1987 requirement that operating room reports accompany open biopsy bils
could have detected only 6.3 percent of the DRG 154 assignment errors. (Appendix G-
The other DRG 154 bils listed exclusively ICD- CM procedure codes not pertinent to
open biopsies. Since the Fls check only 10 percent of open biopsy claims, this proceSs
would correct less than one percent of the errors of the tye, found during this inspection.
Turning to ICD- CM codes for discharges correctly biled to DRG 154 , the majority in­
volved surgical removal of all or a portion of the stomach. Major surgeries of the
esophagus, vagus nerve , and peptic ulcer also occurred frequently. Herna repair and
small intestine procedures appeared only rarely in the biling             codes.


Clinical review results



Medical reviewers judged only 3.2 percent of discharge weighted cases to be unnecessary
 an admission in which the care received by the patient was either not needed or did not
require the use of the inpatient setting ). They occurred in mid-sized and large hospitals.
DRG 154 included no premature discharges. (Appendix H-

                           Figure   8:   Clinical Incidence
              Perc

                                                                                   1M DRG 89
                                                                                       All DRGs




                     Unnee admissions      Poo qualit     Premature dischares




Weighted to represent discharges, only 3.3 percent of this sample, received " quality of
care not meeting professional standards. " This rate is lower than the 5. 5 percent quality
problems in the National DRG Validation Study. (Appendi H­
                              RECOMMENDATIONS



     The HCF A should require the PROs to fuher educate hospital medical records
     departments about the proper codes to use for upper gastrointestinal endoscopies
     and use of the surgical hierarchy.
     The HCF A should direct the PROs to check a sample of future DRG 154 bils    for
     accuracy.


The HCFA agrees with first recommendation and disagrees with the second recommen­
dation. The Offce of Inspector General continues to believe that full implementation of
these recommendations would save $51.0 millon anually.
                  endix              1: DRG 154 dischar es from all PPS hos itals


Fiscal Year                                   1984        1985           1986            1987

Relative weight                                6901        6621           6726            6876
Number of discharges                         28, 272     38,433             877             255
Total charges ($000)                        314 127     596, 540       703, 995        759, 069
Total reimbursement ($000)                  216, 521    315, 081       367 303         381 445
Average reimbursement ($)                       659         198             566             819




                              Aependix A- 2: DRG 154                     sam              frame


Number of discharges                Bed size
                                    oe100               100- 299            300+                        Total

Medicare population                  023                   609             21, 801                     38,433
Sample hospitals                                           318                 790                        162
Sampled

Sampling fraction (%)             (46.                    (7.                   (3.                     (6.




                          Aependix A- 3: DRG 154 hospital                             demo


Number (percent Bed size                                                               Wei      ercenta
                                                                                                hted

ditrbution)                 -:100            100- 299           300+        Tota        Sample Discharge Hospita
Urban                      10 (40.           19 (76.       23 (92.                       (69.                 (83.     (60.
Rural                      15 (60.            6 (24.        2 (8.                        (30.                 (16.     (40.

Teaching                    3 (12.            8 (32.        13 (52.                      (32.                 (40.     (20.
Nonteaching                22 (88.           17 (68.        12 (48.                      (68.                 (57.     (75.

Profit                      3 (12.            3 (12.                                      (8.                   (5.    (10.
Nonprofit                  22 (88.           22 (88.       25(100.                       (92.                 (94.     (89.

Total                      25(100.           25(100.       25(100.                      (100.             (100.       (100.
                 endix              4: DRG 154 hos           ital     demo               com arison

Percent                                Bed size                              Wei hted    ercenta
distribution                           c: 00      100- 299          300+     Sample      Discharge Hospital

Urban           DRG 154                40.        76.               92.        69.         83.       60.
                All DRGs               19.        70.               94.        62.         71.       48.

Rural           DRG 154                60.        24.                          30.         16.       40.
                All DRGs               80.        29.                          38.         28.       52.

Teaching        DRG 154                12.        32.               52.        32.         43.       20.
                All DRGs                          18.               55.        25.         31.       16.

Nonteaching DRG 154                    88.        68.               48.        68.         57.       75.
            All DRGs                   97.4       81.               44.        74.         68.       83.

Profit          DRG 154                12.        12.                                                10.
                All DRGs                          17.                                                10.

Nonprofit       DRG 154                88.        88.               100.       92.         94.       89.
                All DRGs               90.        82.                97.       90.         90.       89.




                         Al!endix A- 5: DRG 154 patient                      demo


                         Bed size                                   Wei hted avera
                         .:100         100- 299   300+              Sample   Discharge    Hospital

Age (years)              75.           74.         73.              74.         74.        75.
Sex (% male)             40.           36.         40.                          38.        38.
LOS (days)               13.           13.         20.               15.        17.         14.
Payment ($)              6286          7729       8368              7461       8015        7085
Mortality (%)            12.                      12.                                        9.4
                endix    6: DRG 154 patient               demo           hy   comparison

                              Bed size                           Wei hted avera
                              c:100           100- 299   300+    Sample Discharge Hospital

Age (years)   DRG 154         75.              74.       73.       74.          74.    75.
              All DRGs        76.              74.       72.       74.          73.    74.

Sex (% male) DRG 154          40.              36.       40.                    38.    38.
             All DRGs         43.              45.4      48.       45.          46.    44.

LOS (days)    DRG 154         13.              13.       20.       15.4         17.    14.
              All DRGs                          7.4

Payment ($)   DRG 154         6286            7729       8368      7461         8015   7085
              All DRGs        1849            2923       3807      2860         3115   2508

Mortality (%) DRG 154         12.                        12.                            9.4
              All DRGs                                                           6.4
                             endix              1: DRG 154 codin accurac


Number of errors   Bed size                                                      Wei hted avera
(Rate)              -:100             100- 299            300+           Tota     Sample Discharge Hospita
Urban               2 (20.                 7 (36.         3 (13.                      (23.       (22.4)         (24.4)
Rural               3 (20.                 1 (16.         0 ( 0.                      (17.4)     ( 7.4)         (15.

Teaching            2 (66.                 5 (62.              (15.4)                 (37.       (36.           (57.
Nonteaching         3 (13.                 3 (17.         1 ( 8.                      (13.       (12.           (14.
Profit              2 (66.                 1 (33.         0 ( 0.                      (50.       (16.           (45.
Nonprofit           3 (13.                 7 (31.         3 (12.                      (18.       (19.           (19.
Total               5 (20.                 8 (32.         3 (12.                      (21.       (20.           (22.




               ependix B-2: DRG 154                       codin accuracy comparison

Error rate                           Bed size                              Wei hted avera
                                     -:100          100- 299      300+     Sample Discharge Hospital
Urban         DRG 154                20.            36.           13.                          22.4       24.
              All DRGs               22.            19.           16.           18.            18.        20.
Rural         DRG 154                20.            16.                         17.             7.4       15.
              All DRGs               23.            16.           22.           21.            20.        21.
Teaching      DRG 154                66.            62.           15.           37.            36.        57.
              All DRGs               20.            20.           15.           17.4           18.        19.

Nonteaching DRG 154                  13.            17.                         13.            12.        14.
            All DRGs                 23.            17.           17.           20.            18.        20.
Profit        DRG 154                66.            33.                         50.            16.        45.
              All DRGs               23.            18.           18.           20.            19.        21.
Nonprofit     DRG 154                13.            31.           12.           18.            19.        19.
              All DRGs               23.            18.           16.           19.4           18.        20.
Total         DRG 154                20.            32.           12.           21.            20.        22.
              All DRGs               23.            18.           16.           19.            18.        20.
($)
(%)




            endix               3: DRG 154 coding accuracy by patient demo9!hy


                                     Bed size                     Wei hted avera
                                     ..100      100- 299   300+   Sample Discharge Hospital

Age                 Correct          76.        74.        73.      74.      74.     75.4
(years)             Incorrect        71.        75.        73.      73.      74.     73.

Sex                 Correct          40.        41.        45.      42.4     43.     41.
(% male)            Incorrect        40.        25.                 25.      11.     28.

LOS                 Correct          15.        14.        21.      17.4     18.     16.
(days)              Incorrect                   10.4

Payment             Correct          6144       7893       8535     7539     8164    7092
                    Incorrect        6855       7382       7147     7174     7221    7073

Mortality           Correct          15.                   13.      11.      10.     1 1.
                    Incorrect
             endix        C-1: DRG 154           over           ments           by hospital demo9.hy



Number                   Bed size                                                     Wei hted avera
(percent of errors)       ..100          100- 299           300+               Tota   Sample Discharge Hospita

Urban                     2 (100.          7 (100.          3 (100.                   (100.    (100.   (100.
Rural                     3 (100.          1 (100.                                    (100.    (43.    (84.
Teaching                  2 (100.          5 (100.          2 (100.                   (100.    (100.   (100.
Nonteaching               3 (100.          3 (100.          1 (100.                   (100.    (100.   (100.

Profit                    2 (100.          1 (100.                                    (100.    (43.    (84.
Nonprofit                 3 (100.          7 (100.      3 (100.                       (100.    (100.   (100.

Total                     5 (100.          8 (100.      3 (100.                       (100.    (100.    (100.




                          endix          2: DRG 154 overpayments                        comparison


Percent of                               Bed size                                 Wei hted avera
errors                                   -c100       100- 299            300+     Sample Discharge Hospital

Urban            DRG 154                 100.        100.               100.          100.    100.     100.
                 All DRGs                 53.         60.4               57.           58.     57.      56.

Rural            DRG 154                 100.        100.                             100.     43.      84.
                 All DRGs                 66.         57.               65.            64.     62.      63.

Teaching             DRG 154             100.        100.               100.          100.    100.     100.
                     All DRGs             66.         59.                56.           57.     59.      62.

Non-                 DRG 154             100.        100.               100.          100.    100.     100.
teaching             All DRGs             64.         59.                59.           61.     60.      61.

Profit               DRG 154             100.        100.                             100.     43.      84.
                     All DRGs             68.         55.               63.            60.     61.      63.

Nonprofit            DRG 154             100.        100.               100.          100.    100.     100.
                     All DRGs             63.         60.                57.           60.     59.      61.

Total                DRG 154             100.        100.               100.          100.    100.     100.
                     All DRGs             64.         59.                57.           60.     59.      61.
(%)
($)




            endix   c-3: DRG 154     overpayments buatient                demo


                          Bed size                              Wei hted avera
                          .:100        100- 299          300+   Sample Discharge Hospital

Age           Underpaid
(years)       Overpaid    71.          75.              73.       73.      74.     73.

Sex           Underpaid
(% male)      Overpaid    40.          25.                        25.      11.     28.

LOS           Underpaid
(days)        Overpaid     4.4         10.4

Payment       Underpaid
              Overpaid    6856         7382             7147      7174     7221    7075

Mortality     Underpaid
              Overpaid
                 Aependix D-1: DRG 154 hospital department making error


Coding                  Bed size                                                 Wei hted avera
deparent                  0:100         100- 299           300+          Total    Sample Discharge Hospita
errors (PercentJ

Urban                     2(100.         7 (100.          3 (100.                 (100.    (100.    (100.
Rural                     3(100.         1 (100.          0 (100.                 (100.    (100.    (100.

Teaching                  2(100.         5 (100.          2 (100.                 (100.    (100.    (100.
Non-                      3(100.         3 (100.          1 (100.                 (100.    (100.    (100.
teaching

Profit                    2(100.         1 (100.          0 (100.                 (100.    (100.    (100.
Nonprofit                 3(100.         7 (100.          3 (100.                 (100.    (100.    (100.

Total                     5(100.         8 (100.          3 (100.                 (100.    (100.    (100.

100%     no billing departent e"ors.




         endix         2: DRG 154 hos ital de artment makin error com arison


Percent of                             Bed size                             Wei hted avera
errors                                  100        100- 299       300+      Sample Discharge Hospital
Urban              DRG 154             100.        100.           100.           100.     100.     100.
                   All DRGs             89.         88.            90.            89.      89.      89.

Rural              DRG 154             100.        100.           100.           100.     100.     100.
                   All DRGs             94.         95.            90.            94.      93.      94.

Teaching           DRG 154             100.        100.           100.           100.     100.     100.
                   All DRGs             91.         92.            89.            90.      90.      91.

Non-               DRG 154             100.        100.           100.           100.     100.     100.
teaching           All DRGs             93.         90.            92.            92.      91.      92.

Profit             DRG 154             100.        100.           100.           100.     100.     100.
                   All DRGs             86.         92.4           81.            89.      86.      87.4
Nonprofit          DRG 154             100.        100.           100.           100.     100.     100.
                   All DRGs             94.         90.            90.            92.      91.      92.

Total              DRG 154             100.        100.           100.           100.     100.     100.
                   All DRGs             93.         90.            90.            91.      91.      92.
(%)
($)




  Appendix D- 3: DRG 154 hospital       department making error by patient
                                 demo

                      Bed size                      Wei hted avera
                      c:100      1 00- 299   300+   Sample Discharge Hospital

Age          Biling
(years)      Coding   71.4       75.         73.      73.      74.     73.

Sex          Biling
(% male)     Coding   40.        25.                  25.      11.     28.

LOS          Biling
(days)       Coding    4.4       10.

Payment      Billng
             Coding   6856       7382        7147     7174     7221    7074

   rtality   Billng
             Coding
                           pendix      1: DRG 154 coding error reasons



Number                              Bed size                                    (Percent)
                                                  100- 299   300+       Total
                                    c: 09

Mis-specification                                                                  (12.
     Principal diagnosis
Miscoding                                                                          (12.
     Principal diagnosis                                                           ( 6.
     Secondar diagnosis                                                             (62.
        Procedure                                                                   ( 6.
Other
                                                                                   (100.
Total




                                                                Miscoding              Other
 Number                             Mis-specification
 (Percent)
                                                                    (80.                    (20.
  c:1 00 beds
                                          (0.                                               (0.
                                           (25.                     (75.
  100- 299 beds
                                           (0.                      (100.                   (0.
  300+ beds
                                           (16.                     (83.                    (0.
  Urban                                                             (75.                    (25.
  Rural
                                           (0.
                                           (22.                     (77.                    (0.
  Teaching
                                           (0.                      (85.                    (7.
  Nonteaching
                                           (0.                       (100.                   (0.
   Profit
                                            (15.4)                   (76.                    (7.
   Nonprofit
                                            (12.                     (81.                    (6.
   Total
            gpendix E- 3:        DRG 154 coding error reasons comparison



                                  Bed size                               Wei hted avera
Percent of errors                                                300+    Sample     Discharge   Hospital
                                  .:100         100- 299

                                                 25.                       12.
Mis-specification     DRG 154                                                          47.      48.
                                       49.       44.              49.4     48.
                      All DRGs

                                                                 100.      81.         89.4     81.
                      DRG 154          80.       75.
Miscoding                                                         11.4      11.        12.      11.
                      All DRGs         10.       14.
                                                                                                0.
Resequencing          DRG 154                                                                   28.
                                                 24.              24.       27.        25.
                      All DRGs         31.
                                                                                                10.
Other                 DRG 154          20.                                                       11.
                                                  15.              14.      12.        13.
                      All DRGs




         endix E-4: DRG          154         codin      error reasons





                                                 Miscoding                  Other
                    Mis-specification
                                                       76.                    67.
  Age (years)        59.
                     50.                               23.
  Sex (% male)
  LOS (days)          17.
                                                     6938                    6107
  Payment ($)        9235
  Mortality (%)
                 Appendix F- 1: DRG 154 corrected relative weights


Relative                          Bed size                                Average
                                  .c100         100- 299     300+
weight

Avera                                                         6621         6621
                                    6621          6621
Paid                                              1194        4333         2823
Corrected                           2942                                   3798
                                    3679          5427        2288
Difference

Total                                                        66. 5525     66. 5525
                                  66. 5525      66. 5525
Paid                                                         60. 8325     57. 0575
                                  57. 3550      52. 9850
Corrected                                                        7200      9.4950
                                      1975      13. 5675
 Diference


                          endix            2: DRG 154 corrected reimbursement



                                   Bed size                                Average
                                   .c100         100- 299       300+
 Avera                                                              818      453
                                     982            560
 Paid                                               019             146      389
  Corrected                          017                                     063
                                     965             541            672
  Difference

  Total                                                       195,443       186, 318
                                    174, 541      189, 012
  Paid                                                        178, 646      159, 737
                                    150,419       150,480
  Corrected                                                    16, 798       26, 582
                                     24, 121       38, 532
  Difference
                                                    (20.4)          (8.     (13.4 )
  Overpayment                         (13.
  rate (%)

    Discharge weighted.
                           A2pendix F-       3: DRG 154
                                                                jected   cost of errors



Fiscal Year        Reimbursement           Overpayment
                   ($ milion)              ($ milion)

1984               216.                    28.
1985               315.                    42.
1986               367.                    49.
1987               381.                    51.
1988 est.          456.                    61.
1989 est.           511.                   68.
1990 est.           566.                   75.

Overpayment calculated 

                                as 13.4
   percent of reimbursement.
Estimates based on linear regression.
                                                                 es      mis-assi ned to DRG 154
        endix G- 1 :   Correct MDC for dischar




                                                 Bed size                                    (Percent)
Number                                                       100- 299       300+    Total
                                                 ..100
                                                                                              ( 93.
MDC 06: Digestive System                                                                      ( 6.
MDC 20: Alcohol and Drugs
                                                                                              (100.
Total




                                                                      es mis-assi ned to DRG 154
            ndlX G-2: Correc DRG for dlscha

                                                  Bed size                                    (Percent)
 Number                                                       100- 299       300+    Total
                                                  ..100
                                                                                              ( 18.
 174: Gastrointestinal hemorrhage                                                             ( 12.

 177: Uncomplicated peptic ulcer                                                              ( 31.
 182: Esophagitis. gastroenteritis,
      & miscellaneous digestive disorders
                                                                                               ( 62.
               Subtotal                                                                        ( 37.
               Other DRGs                                                                      (100.
               Total




   Appendix G- 3: ICD-9-CM procedure codes for discharges mis-assigned
                                                   to DRG 154


                                                    Number      (percent)

                                                                 ( 30.
   ESophagoga roduodenOscopy
   Esophageal biopsy                                             ( 47.
   Brush biopsy
   Colonoscopy
   Colon excision
   Trans-abdominal endoscopy
   Incisional hernia
   psychiatric drug treatment
                                                                  (100.
    Total
           endix           4: ICD- CM procedure codes for DRG 154 discharges



                                       Number      (Percent)

Esophageal surgery                                 ( 15.
Gastrectomy                                        ( 51.
Vagotomy                                           ( 14.
Ulcer surgery                                      ( 12.
Small intestine surgery
Herniorrhaphy

Total                                              (100.




                   endix     G-5: DRG 154 errors               bilin   for an open   bio


                                      Number       (Percent)

Open biopsy claimed
No open biopsy claimed                             ( 93.


Total                                              (100.
                                 endix            1: DRG 154 clinical incidents


                                                                                Wei hted avera
Number              Bed size
                                          100- 299         300+         Tota     Sample Discharge Hospita
(Rate)                 '" 1 00


Unnecessary                                                                        (2.      (3.       (1.
                             (0.                  (4.          (4.
admissions
Poor quality                                                                       (4.      (0.4)     (4.
                             (8.                  (0.          (0.
of care
Premature                                                                          (0.      (0.       (0.
                             (0.                  (0.          (0.
discharges




                     endix               2: DRG 154 clinical incidents com arison


                                          Bed size                             Wei hted avera
 Rate
                                          oe100         100- 299     300+      Sample Discharge Hospital

 Unnecessary     CRG 154                                                         10.       10.      11.
                 All CRGs                 12.           10.
 admissions
                                                                                            0.4
  Poor quality   CRG 154
  of care        All CRGs                  11.4

  Premature      CRG 154                                                                              1.4
                                                                      0.4
  discharge      All CRGs
